                         u.s. SM.AlLBUSINESS ADMINISTRATION
                             OFFICE OF INSPECTOR GENERAL
                                  AUDITING DIVISION



                                                                 AUDIT REPORT
                                                       Issue Date: November 14, 2008

                                                       Number: 9-03
              7               '

To:           .Sandy K. Baruah
               Acting Adminfstrator

               Jennifer Main
               ChiefFinancial Of».cer
             [F()1;.P. e;r.,l...P" ___-J
From:           tre~Ritt
              . Assistant Inspector General for Auditing

Subject:          Audit of SBA'jl FY 2008 Financial Statements


         Pursuant to the CbiefFinancial Officer's Act of 1990. attached are the Independent
 Auditors' Report and accompanying reports on internal control and compliance with laws
  and regulations issued by KPMGLLP for the fiscal year ending September 30, 2008. The
  audit was performed under a contract with the Office of Inspector General (OIG) and in
  accordance with Generally Accepted Government Auditing Standards; Office of
  M~elllerit and Budget's (OMB) BUlletin 07~04. Audit Requirements for Federaf
  Financial Statements, as amended; the Government Accountability Office
  (GAO)lPresident's Couricil on IntegritY and Efficiency (peIE) Financial Audit Manual; and
. GAO's Federal In[ormation System Controls Audit Manual.

          The KPMG report concluded that SBA's consolidated financial statements presented
 fairly, in all material respects, the fmancial position of SBA as of and for the years ended
 September 30,2008 and 2007. It also presented fairly. in all material respects, SBA's net
 costs, changes in net position, and combined statements of budgetary resources for the years
 then ended.

         With respect to internal control over financial reporting, KPMG continued to report
 a significant deficiency related to Infonnation Technology controls; but did not consider this
 deficiency to be a material weakness. KPMG noted that SBA made progress in several
 areas in its efforts to address prior year Information Technology internal control
 deficiencies. However, despite these improvements, deficiencies continue to exist for
 security access controls, so:ftWare program changes, and end-user computing. Details
 regarding this significant deficiency are discussed more in Exhibit 1 of the Independent
 Auditors' Report.
            KPMG's test for compliance with certain laws, regulations, contracts and grant    ~
     agreements disclosed no instances ofnoncompliance or other matters that are required to be
     reported under Government Auditing Standards, and Bulletin 07-04, as amended.

              We provided a draft ofKPMG's report to SBA's Chief Financial Officer (CFO),
      who con6urred with its ftndings and recommendations and agreed to implement the
,'. ·~·reco1lln1endations. the:cFcfis delight~i:hat SBA has again reeeivedan Unquatifled
      audit opinion with no reported material weaknesses and believes these results accurately
      refIecftfi~ quality of the Agency's financial statements and its improved accounting, '
      b~getilig and reporting processes.

        •    We reviewed a copy ofKPMG's report and related documentation and made
      necessary inquiries of their respective representatives. Our review was not.intended to
      enable uS to express, and we do not express, an opinion on the SBA's financial statements,
      KPMG's conclusions about the effectiveness ofintemal control, or its conclusions about
      SBA's compliance with laws and regulations. However, our review disclosed no instances
      where ~MG did not comply, in all material respects, with Generally Accepted Government
      Auditing Standards.
                              _.
              We appreciate the cooperation and assistance ofSBA and KPMG. Should you or
      your staff have any questions, please contact me at (202) 205Lfx. -z...Jor Jeffrey R. Brindle,
    . Director, Information Technology and Financial Management Group at (202) 205{£x 2.:1

    ·.Attae~ts
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036




                                          Independent Auditors’ Report


Office of Inspector General
U.S. Small Business Administration:

We have audited the accompanying consolidated balance sheets of the U.S. Small Business Administration
(SBA) as of September 30, 2008 and 2007, and the related consolidated statements of net cost, changes in
net position, and combined statements of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the years then ended. The objective of our audits was to express an opinion on
the fair presentation of these consolidated financial statements. In connection with our fiscal year 2008
audit, we also considered SBA’s internal controls over financial reporting and tested SBA’s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements that could have a
direct and material effect on these consolidated financial statements.

SUMMARY

As stated in our opinion on the consolidated financial statements, we concluded that SBA’s consolidated
financial statements as of and for the years ended September 30, 2008 and 2007, are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles.

Our opinion emphasized that the current economic conditions give rise to risks associated with the
uncertainty of future events and actual losses to the agency will be dependent upon future economic and
market conditions.

Our consideration of internal control over financial reporting resulted in the following condition being
identified as a significant deficiency:

•   Improvement Needed in Information Technology (IT) Controls

However, we did not consider this significant deficiency to be a material weakness.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards, issued by the Comptroller General of the United States, and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended.

The following sections discuss our opinion on SBA’s consolidated financial statements; our consideration
of SBA’s internal control over financial reporting; our tests of SBA’s compliance with certain provisions
of applicable laws, regulations, contracts, and grant agreements; and management’s and our
responsibilities.




                                                                         1

                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of SBA as of September 30, 2008 and
2007, and the related consolidated statements of net cost, changes in net position, and the combined
statements of budgetary resources for the years then ended.
In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of SBA as of September 30, 2008 and 2007, and its net costs, changes in net
position, and budgetary resources for the years then ended in conformity with U.S. generally accepted
accounting principles.

As discussed in note 17 to SBA’s financial statements, SBA continues to evaluate the risks posed by the
current market downturn on its direct loan and loan guaranty portfolios, but the impact of such future risks
cannot be reasonably estimated at this time. Actual losses, if any, will largely depend on future economic
and market conditions and could differ materially from SBA’s current estimates.

The information in the Management Discussion and Analysis, Required Supplementary Information and
Required Supplementary Stewardship Information sections is not a required part of the consolidated
financial statements, but is supplementary information required by U.S. generally accepted accounting
principles and OMB Circular No. A-136, Financial Reporting Requirements. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this information, and
accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and would not necessarily disclose all deficiencies in the internal
control over financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects SBA’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with U.S. generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of SBA’s consolidated financial statements that is more than inconsequential
will not be prevented or detected by SBA’s internal control over financial reporting. A material weakness
is a significant deficiency, or combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected by
SBA’s internal control.

In our fiscal year 2008 audit, we consider the deficiency described in Exhibit I to be a significant
deficiency in internal control over financial reporting; however, we do not believe the significant
deficiency described in Exhibit I is a material weakness. A summary of the status of the prior year
significant deficiency, and management’s response to our findings, is included as Exhibits III and IV,
respectively.

We also noted certain additional matters that we reported to SBA’s management in a separate letter dated
November 14, 2008.




                                                        2

COMPLIANCE AND OTHER MATTERS

The results of our tests of compliance described in the Responsibilities section of this report, exclusive of
those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04, as amended.

The results of our tests of FFMIA disclosed no instances in which SBA’s financial management systems
did not substantially comply with (1) Federal financial management systems requirements, (2) applicable
Federal accounting standards, and (3) the United States Government Standard General Ledger at the
transaction level.

                                            * * * * *

RESPONSIBILITIES

Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, contracts,
and grant agreements applicable to SBA.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2008 and 2007
consolidated financial statements of SBA based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04, as amended. Those standards and OMB Bulletin No. 07-04, as
amended, require that we plan and perform the audits to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of SBA’s internal
control over financial reporting. Accordingly, we express no such opinion.

An audit also includes:

•	 Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
   financial statements

•	 Assessing the accounting principles used and significant estimates made by management

•	 Evaluating the overall consolidated financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2008 audit, we considered SBA’s internal control over financial
reporting by obtaining an understanding of the SBA’s internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an
opinion on the effectiveness of SBA’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of the SBA’s internal control over financial reporting.




                                                      3

As part of obtaining reasonable assurance about whether SBA’s fiscal year 2008 consolidated financial
statements are free of material misstatement, we performed tests of SBA’s compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of SBA financial statement amounts, and certain provisions
of other laws and regulations specified in OMB Bulletin No. 07-04, as amended, including the provisions
referred to in Section 803 (a) of FFMIA. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to SBA. However, providing an opinion on compliance with laws, regulations,
contracts, and grant agreements was not an objective of our audit, and accordingly, we do not express such
an opinion.

                                  ______________________________

SBA’s response to the findings identified in our audit report is presented in Exhibit IV. We did not audit
SBA’s response, and accordingly, we express no opinion on it.

This report is intended solely for the information and use of SBA’s management, SBA’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress, and is not
intended to be, and should not be, used by anyone other than these specified parties.




November 14, 2008




                                                    4

                                                                                                        Exhibit I
                                      U.S. Small Business Administration 

                                             Significant Deficiency 





  The int~rnal control deficiency discussed in this report and the U.S. Small Business Administration's (SBA)
;:,progress toward correcting it are discll.$sed in the context of SBA's organizationalstmcture and its ability to
  ob@n funding tqtakeoorrective action. Exhibit I herein describes the control deficienCies, which collectively·
  resulted in the significant deficiency reported below, for the year ended. September. 30, 2008, and our
  recommendations thereon. The status of prior year noncompliance and internal control·<deficiencies are reported
  in EXhibits II and III, respectively, and SBA management's response is presented in Exhibit IV.
                             ---	                                                        r



 (1) Improvement Needed in Information Technology (11) Controls

 During fiscal year 2008, we noted that SBA made progress in several areas in its efforts to address prior year IT
 internal control deficiencies. Despite these improvements, we also noted that deficiencies continued to exist in
 the <!!eas of security access controls, software program changes, and end-user computing.
. Security Access Controls

 Integral to an organization's security program management efforts, technical security access controls for systems
 and applications should provide reasonable assurance that IT resources such as data files, application programs,
 and iT-related facilities/equipment are protected against unauthorized modification, disclosure, loss, or
 impairment.

-A sum.mary of the security access control deficiencies we identified during the fiscal year2008 SBA fmancial
 statement audit follow:




 • 	 Neither OCIO nor DCMS officials were able to ensure that security vulnerability scans were consistently
     performed for two DCMS devices physically located at SBA Headquarters. This issue was identified by the
     SBA Office of Inspector General (OIG) during the OIG's annual Federal Informati'on Security Management
     Act (FISMA) evaluation.




 • The OCIO does not appropriately control remote access authorizations. Specifically, remote access is not
                                                                                                                 J
   always requested and approved by the employees' supervisor, and can be requested by the employees


                                                       I-I 

                                                                                                        Exhibit I
                                     u.s. Small Business Admiuistratiou
                                             Significant Deficiency



   themselves. Further,e~mail approvals from_.su¢.rvisorsarenotietained for.all remot~ acc~ss requests. As a .
   result, controls over remote access authorization are more difficult to implement and validate.

• 	 Validation of physical access to the data center·JfSBA's headqUarters is not performed in accordance with
    SBA Standard OPerating Procedure(SOP)90-47:2',AutomatedmjOrmation Systems Security Program~ which
    requires that a listing of authorized personnel for SBA computerfacilities (e.g., server rooms) be maintained
    and access be revalidated at least quarterly.

• 	 OCIO management is unable'to provide reasonable assurance that electronic media is sufficiently sanitized
    prior to disposal, in accordance with SOP 90-47.2. The SOP requires that (1) media must be sanitized prior to
    disposal by using one of the three approved methods: overwriting, degaussing, or destruction, and (2) a log of
    who completed the sanitation action must be maintained.

• 	 OCIOmanagement was unable to provide reasonable assurance that access to the Loan Accounting System
    (LAS) and Local Area Network (LAN)/wide Area Network (WAN) was periodically validated, in
    accordance with National Institute of Standards and Technology (NIST) guidance and SOP 90-47.2.

These issues are consistent-with fmdingsidentified by the OIG in past years. In fact, the OIGhas identified IT
security as a serious SBA management challenge since at least fiscal year 2000.

Despite these issues, SBA has made significantiwprpvements in recent years in the area of IT security, and there
is commitment from the SBA to continue further improvements continue.

Recommendations - Security Access Controls:

We recommend that the SBA OCIO coordinate with SBA program offices to:




                                                                                                                ]
3. 	 Ensure the completion of more consistent vulnerability assessments to identifY and resolve potential
     vulnerabilities, both within SBA offices and at service providers.




                                                      1-2 

                                                                                                         Exhibit I
                                     U.S. Small Business Administration
                                             Significant Deficiency



4.	 Implement procedures to control the process for requesting and granting remote access and implement
    procedures to retain the appropriate approval evidence for tracking and validation.

5.	 Implement controls to comply with SOP 90-47.2 regarding the validation of physical access to the data
    center.

6.	 Implement controls to comply with SOP 90-47.2 regarding the sanitizing of media prior to disposal.

7.	 Retain documentation supporting the validation of LAS and LAN/WAN system access in accordance with
    NIST guidance and SOP 90-47.2.

Software Program Changes
The primary focus of an organization’s software change controls (which also encompasses patch management
and configuration management efforts) is on controlling the software changes made to systems and applications
in operation. Without such controls, there is a risk that security features could be inadvertently or deliberately
omitted or turned off, or that processing irregularities or malicious code could be introduced into the IT
environment.

A summary of the software program change control deficiencies we identified during the fiscal year 2008 SBA
financial statement audit follow:
•	 The Office of Disaster Assistance (ODA) was unable to provide evidence that baseline configurations for the
   DCMS were updated in a timely manner. This issue was also identified in fiscal year 2007, and SBA was still
   in the process of implementing corrective actions during fiscal year 2008.

•	 The OCIO was unable to provide evidence that (1) testing was performed for four of eight selected LAS
   software changes, (2) approvals were made for two of eight selected LAS software changes, and (3) testing
   and approvals were documented for three selected Electronic Transaction System (E-TRAN) software
   changes.

•	 The OCIO was unable to provide evidence that changes to the LAN/WAN were appropriately tracked,
   approved, and implemented.

•	 Ineffective software program change controls in the Joint Administrative and Accounting Management
   System (JAAMS) directly led to duplicate payments in the amount of $11,205,608.

•	 The Office of the Chief Financial Officer (OCFO) was unable to provide evidence that the software change
   requests were consistently completed for JAAMS and the Financial Reporting Information System (FRIS).

•	 The OCIO was unable to provide evidence that baseline configurations for LAS were updated in a timely
   manner. Documented baseline configurations enable the process of tracking and controlling software
   changes, especially as system security settings are changed.

•	 The Office of the Chief Operating Officer (OCOO), in conjunction with SBA program offices, has not
   documented segregation of duty procedures for LAS. Consequently, we could not validate that incompatible
   software change duties were appropriately segregated. This issue was also identified in fiscal year 2007, and
   SBA was still in the process of implementing corrective actions during fiscal year 2008.


                                                      I-3 

                                                                                                        Exhibit I
                                     U.S. Small Business Administration
                                             Significant Deficiency



Recommendations – Software Program Changes:

We recommend the following:

8.	 ODA management ensures the consistent application of controls and procedures to document the DCMS
    baseline configuration.

9.	 OCIO management consistently apply procedures for documenting software change testing results, testing
    approvals, and final approvals. Specifically, such procedures and controls need to be consistently applied for
    LAS, E-TRAN, and LAN/WAN.

10. OCFO management consistently apply procedures for documenting software change testing results, testing
    approvals, and final approvals for JAAMS and FRIS.

11. OCIO management ensures the consistent application of controls and procedures to document the LAS
    baseline configuration.

12. OCOO, in conjunction with program offices, document and implement segregation of duty policies and
    procedures for LAS.

End-User Computing
End-user computing tools/programs (e.g., spreadsheets and other user-developed programs) present the need for
a unique set of general control needs within an organization. By its nature, end-user computing brings the
development and processing of information systems closer to the user. End-user computing capabilities typically
include access to any end-user developed programs or objects, such as spreadsheets that contain critical
data/information. Critical data/information could include Personally Identifiable Information (PII) and financial
data. While this environment may not typically be subjected to the same level of rigor and structure as an IT
general controls environment, policies and procedures in this area are important to the overall IT environment.
We noted many SBA program offices, including the OCFO, Office of Capital Access, and Office of Human
Capital Management, have not implemented end-user computing policies and procedures set forth and provided
by the OCIO to identify, track, and protect end-user programs containing sensitive information.

Recommendations – End-User Computing:

13. We recommend that the OCIO reemphasize the importance to SBA program offices of controlling end-user
    programs containing sensitive data, such as PII and financial data, in accordance with OCIO policy.




                                                      I-4 

                                                                                                        Exhibit II
                                       U.S. Small Business Administration
                                        Status of Prior Year Noncompliance



Fiscal Year 2007 Noncompliance                               Fiscal Year 2008 Status of Noncompliance
Debt Collection Improvement Act of 1996 (DCIA)               The results of our tests of compliance with DCIA in
                                                             fiscal year 2008 disclosed no instances in which SBA
During our audit for fiscal year 2007, we noted that         is in substantial noncompliance with DCIA.
SBA did not consistently follow Treasury guidelines
when referring delinquent debts for collection in
accordance with DCIA. Specifically, we noted that 47
of 140 delinquent debt referral transactions tested were
not referred timely or were coded improperly in SBA’s
Loan Accounting System. These exceptions prompted
SBA to examine if there were additional loans that
were improperly referred to Treasury. As a result of
this examination, management determined it did not
refer approximately 24,000 delinquent debts for
Treasury in accordance with DCIA. SBA management
believes that the issue stems from outdated standard
operating procedures and a lack of clear instructions to
field offices regarding the referral of delinquent debt to
Treasury. Towards the end of fiscal year 2007, SBA
management established revised protocols that provide
clear instructions to field offices to ensure compliance
with DCIA.




                                                         II-1

                                                                                                   Exhibit III
                                   U.S. Small Business Administration
                                Status of Prior Year Significant Deficiency


Fiscal Year 2007 Findings                             Fiscal Year 2008 Status of Findings

1. Improvement needed in management information During our review of SBA’s information technology
   technology security controls                 (IT) general and application controls, we noted
                                                improvements in formalizing policies and procedures
                                                over sanctioning contractors that don’t complete
                                                annual computer security awareness training,
                                                increasing storage space for audit logs and retention of
                                                the logs themselves, implementing day-to-day data
                                                center employee responsibilities and end-user
                                                computing user-level access control policies, and
                                                finalizing Change Control Board Charter for
                                                enterprise-wide changes. However, we continued to
                                                identify opportunities for SBA to improve its internal
                                                controls. The control deficiencies that continue to exist
                                                are in the following areas: security access controls,
                                                software program changes, and end-user computing.

                                                      Therefore, in fiscal year 2008, the presentation of the
                                                      issue was modified to reflect current year operations,
                                                      and we continue to report a significant deficiency in
                                                      internal controls as it relates to IT systems and their
                                                      impact on the consolidated financial statements. See
                                                      Exhibit I for additional information.




                                                   III-1                                                         

                                                                                  Exhibit IV


                       U.s.   SMALL BUSINESS ADMINISTRATION
                                WASHINGTON, D.C. 2.0,(16




CFO Response to Draft Audit Report on FY 1008 Financial Statements


DATE:          November 14, 2008
                                ----­
TO:            Debra   ·ruu.. Assi_~t 10 for Auditing
FROM:          Jennifer Main, Chief Financial Offict:J   [V<. &]
SUBJECT:       Draft Audit Report on FY 2008 Financial Statements

".[J:u~ Small Business Administration is in receipt ofthe draft Independent Auditors'
Report from KPMG that includes the auditor's opinion on the financial statements and
review of the Agency's intemaLcontrol over financial-reporting and compliance with
lawsanaregula:tions. The independent audit ofthe Agency's financial statements and­
relate~ processes is a core component ofSBA's financial management program..

We are delighted that the SBA has again received an unqualified audit opinion from the
independent auditor with no reported material weaknesses. Additionally, the report
found that SBA is in compliance with all applicable laws and regulations again this year.
We believe these results accurately reflect the quality of the Agency's financial
statements'and our improved accounting, budgeting and reporting processes. As you
know, the SBA has worked hard over the past several years to address the many findings
from our independent auditors. Our core :financial reporting data and processes have
improved substantially and we are proud that the results of our efforts have been
confinned by the independent auditor.

The audit report, however, includes a continuing significant deficiency in the SBA's
information technology controls. While we appreciate the recognition in the report of the
substantial progress tJ:ie SBA has made in this area, we are nonetheless disappointed that
the significant improvements we have made were not sufficient for the auditor to
eliminate this finding. During FY 2008. the SBA's Office of the Chief Information
Officer instituted several processes to strengthen information security controls and took a
multitude of corrective actions to address previous audit findings, closing 24 out of 41
previous findings. In addition, OCIO made significant progress on the SBA's
Management Challenges reported by our Inspector General, scoring green on two key
critical areas affecting service continuity controls and computer security training. We do,
however, recognize that further improvements are needed in SBA's information
                                                                                Exhibit IV


technology controls, and the SBA is committed to taking all necessary action to eliminate
this significant deficiency in future audit reports.

We appreciate all of your efforts and those of your colleagues in the Office of the
Inspector General as well as those ofKPMG. The independent audit process continues to
provide us with new insights and valuable recommendations that will further enhance
SBA's financial management practices. We continue to be committed to excellence in
financial management and look forward to making more progress in the coming year.
